ONE SHELL PLAZA
910 LOUISIANA
HOUSTON, TEXAS
77002-4995
TEL +1 713.229.1234
FAX +1 713.229.1522

AUSTIN
BRUSSELS
DALLAS
DUBAI
HONG KONG

HOUSTON

MOSCOW
NEW YORK
PALO ALTO
RIO DE JANEIRO
RIYADH
WASHINGTON

LONDON

April 5, 2021
081864.0118
BY ELECTRONIC FILING

Aaron Michael Streett
TEL +1 713.229.1855
FAX +1 713.229.7855
aaron.streett@bakerbotts.com

Hon. Scott Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Jeffrey Schweitzer, et al. v. Investment Committee of the Phillips 66 Savings Plan,
et al.; No. 20-1255

Dear Mr. Harris:
The petition for a writ of certiorari in the above-referenced case was placed on the
Court’s docket on March 10, 2021, and the Court requested a response after respondents’ waiver.
The due date for a brief in opposition is April 21, 2021.
Pursuant to this Court’s Rule 30.4, respondents respectfully request that the time
within which to file a brief in opposition be extended to and including May 21, 2021. A short
extension will allow respondent to fully evaluate and respond to the petition, in light of counsel’s
obligations before this and other courts. An extension will not materially delay the disposition of
the case.
Respectfully submitted,

Aaron M. Streett
Counsel for Respondents Investment Committee of
the Phillips 66 Savings Plan, et al.
cc:

Co-Counsel:
Travis Sales
Mark Bodron
Tina Nguyen
Counsel of Record for Petitioners:
Matthew W.H. Wessler
Gupta Wessler PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036

62097145.1

